     A Practical Guide
for Reviewing Government
 Purchase Card Programs




     INSPECTION AND EVALUATION COMMITTEE



PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY
EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY
This guide is available on CD rom or on the
following website:

www.ignet.gov/pande/iande.html#reports
i
INTRODUCTION

A U.S. government purchase card is an internationally accepted credit card issued by individual
contractors and available to personnel in all federal agencies under a single General Services
Administration (GSA) contract. The purpose of Purchase Card Programs is to minimize the paperwork
needed to make, with proper authorization, purchases of up to $25,000. According to GSA, in 2000, the
cards were used for more than 23 million transactions worth $12.3 billion. By avoiding the formal
procurement process, GSA estimates the annual savings
to be $1.2 billion.

Although they provide efficiency and savings to the
government, Purchase Card Programs are high-risk
                                                                      LE
because they allow the same individual to order, pay for,
and receive goods and services. This offers the potential
                                                                    MP
for fraud and abusive and improper transactions if not
carefully monitored.                                              SA
Effective Purchase Card Programs depend on the users
having been properly trained to manage their card use.
Treasury Financial Manual, Vol. 1, Part 4, Section 4525, requires each agency to have its own internal
procedures for using purchase cards, so cardholders must be made aware of the applicable laws,
regulations, and procedures developed by their agency. Management’s understanding of internal controls
                                   is essential in ensuring accountability at all levels of purchase card
                                   use. (The terms “management controls” and “internal controls” are
       What topics does            used interchangeably in this guide.)
       the guide cover?
                                   The guide is written primarily for auditors, evaluators, inspectors,
    • Review Objectives            and investigators who may be involved in reviewing purchase card
    • Guidance                     programs. It is based largely on the methods and resources used to
    • Standards                    produce individual office reports and a capping report within the
    • Roles
                                   Department of Education Office of Inspector General (ED/OIG). In
    • Review Preparation
    • Conducting the Review
                                   preparing this guide, the authors also reviewed many audits and
    • Common Problems              reports produced within the IG community, as well as a General
    • Communicating Results        Accounting Office (GAO) report. All the sources reviewed for this
    • Follow Up                    guide are listed in Appendix 1. Other audit, inspection, investigative,
                                   and evaluation tools have been developed by OIGs for use in
                                   reviewing their agency purchase card programs.

This guide is not intended to supercede federal law, regulations, or internal agency guidelines. It is
structured in a question-and-answer format, asking the questions you would ask, structured to provide
the answers you need, ordered in a format intended to lead you through the process. It also offers links
to examples of questionnaires, templates, and reports you will need to complete the process.



                                                        1
REVIEW OBJECTIVES
What are the primary review objectives?

In general, the primary objectives of a purchase card review are to
assess (1) compliance with laws and regulations, (2) efficiency of
operations, and (3) adequacy of internal or management controls
to help prevent fraud, waste and abuse by cardholders or others
who attempt to manipulate the program. We recommend that you
focus on all three.

GUIDANCE
What guidance covers the use of government purchase cards?

•   Federal Acquisition Regulation (FAR), Part 2, Definitions of Words
    and Terms; Part 8, Required Sources of Supplies and Services; and Part 13, Simplified Acquisition
    Procedures

•   Treasury Financial Manual, - Vol. I, Part 4, Chapter 4500, “Government Purchase Cards”

•   Code of Federal Regulations, Title 5, Administrative Personnel, Chapter III, “Office of Management
    and Budget,” Part 1315, Prompt Payment

•   Agency directives pertaining to purchase cards and accountable property

•   Government vendor contract (for example, Bank of America or Citibank)


STANDARDS
Are there some general standards that can be used as a resource in
conducting this evaluation?

•   President’s Council on Integrity and Efficiency Quality Standards
    for Inspection, March 1993

•   General Accounting Office Standards for Internal Control in the
    Federal Government, November 1999 (Appendix 2 contains a
    summary of the standards)

•   General Accounting Office Government Auditing Standards, 1994
    Revision


                                                    2
ROLES
What agency offices are involved in purchase card operations?

•   The program is usually administered by a component of the agency’s Office of the Chief
    Financial Officer (OCFO) or the procurement office. That staff should be able to provide a
    complete list of that agency’s cardholders and approving officials. They may also be able to
    provide the training status of the cardholders or at least identify the office responsible for
    conducting and documenting credit card training.

•   Depending on agency policy for the issuance of cards, every major office and many subunits may
    have cardholders.

What is management’s role in operating a purchase card program?

•   Managers are responsible for the internal controls of the program. The most important internal
    control is the monthly review of the cardholder’s statement by the approving official. Failure of
    approving officials to properly conduct this review has contributed to many of the problems
    outlined below. (See the “Common Problems” section.)

•   Managers are also responsible for program performance, productivity, controlling costs, and assuring
    that programs are managed with integrity and in compliance with applicable laws. As defined by
    OMB Circular A-123, Management Accountability and Control,
           “Management controls are the organization, policies, and procedures used to
           reasonably ensure that (i) programs achieve their intended results; (ii) resources are
           used consistent with agency mission; (iii) programs and resources are protected from
           waste, fraud, and mismanagement; (iv) laws and regulations are followed; and (v)
           reliable and timely information is obtained, maintained, reported and used for decision
           making.”
    Management controls are used to assure that there is prevention or timely detection of unauthorized
    acquisition, use, or disposition of the entity’s assets.




                                                       3
REVIEW PREPARATION
How can the standards be used?

•   One effective approach is to develop questionnaires based on the GAO Standards (Appendix 2),
    which have five elements of internal control: (1) control environment, (2) risk assessment, (3)
    control activities, (4) information and communication, and (5) monitoring. These five elements can
    be broken down into a series of questions for cardholders, approving officials, and others. The roles
    of these individuals are described below in the “Review Preparation” section, under “Who should
    be interviewed?” An example of the questionnaires developed by ED/OIG (see Attachment 1.1)
    can be accessed at http://www.ed.gov/offices/OIG/AIReports.htm.


What personnel should be selected to conduct the review?

•   Inspectors/management analysts, auditors, and investigators can be effective in conducting the
    interviews with cardholders, approving officials, and others. They also can be effective in reviewing
    the cardholders’ financial records and the OCFO. Ideally, entry-level auditors can do much of this
    work, under the supervision of an experienced auditor who can evaluate progress and provide
    guidance. Although non-auditors could conduct the financial review, they may need additional
    training and/or the guidance of someone with an audit background.

•   Investigators can also participate in these reviews, but this guide does not describe methods to use
    should a formal investigation be needed or preferred as an overall approach.

Which directives and program components should be reviewed?

•   Agency purchase card directives, policies, policy procedures or manuals should be made available
    to you and used to provide guidance on how your agency’s purchase card program should be operated.
    This information should be incorporated into your questionnaire and financial review work.

•   As part of your review, you should assess your agency’s purchase card directives and guidance to
    ensure that they are clear and adequate.

•   An element of your review should be the agency’s purchase card training program and its
    effectiveness, as determined by the level of compliance with the procedures and regulations covering
    purchase card use. It is important to incorporate training questions into your questionnaire.




                                                     4
REVIEW PREPARATION
Who should be interviewed during the review?

•   Talk to people who are in the best position to know where potential
    problems may be. For example, managers of offices maintaining a
    large number of cardholders and high volume of purchases should be
    first in line to be interviewed. Also, sources in your own OIG are a
    good place to start; coordinate with your criminal investigators to
    determine if there are any ongoing fraud cases. Review any previous
    work done by your evaluators or auditors for information on internal
    control issues. Card issuing companies may also have suggestions
    regarding problem users.

•   Individual employees to whom purchase cards are issued—those,
    authorized to order and receive purchases—are the next most likely on the list. In compliance with
    the agency’s regulations and procedures and the General Services Administration’s (GSA)
    Government Commercial Credit Card Services contract, the card bears the employee’s name and
    can be used only by that employee and only for official purchases.

•   Approving officials are next; they act as the key internal control in the process. They are responsible
    for authorizing cardholder purchases and ensuring that the purchase card statement is reconciled
    and submitted to the designated billing office in a timely manner. This review is the essential
    control component in the process.

•   Executive and administrative officers often play a major part in the administration of the purchase
    cards for their areas of responsibility and may also serve as interviewees. They are often involved
    in the administration of the purchase card program in their office, especially as it relates to their
    budget.

•   Senior management interviews will help you evaluate the climate of internal control in the
    organization. At the least, inform senior management of problems uncovered, especially if their
    staff has not made them aware of existing problems.

•   We suggest you also interview individuals who administer the program as well as the manager
    responsible for it. Interview these individuals early in the review to get their perception of how the
    program is operating, then compare that to the findings.

•   Designated billing office staff should also be considered for interviewing. The designated billing
    office is the one to which the “official invoice” is submitted. That invoice is a consolidated report
    listing all cardholder charges for the entity the office serves. The designated billing office is
    responsible for ensuring that payment of the official invoice is made in accordance with Prompt
    Payment Act deadlines.

•   Other interviews may be required in order to resolve potential issues uncovered during the
    review.
                                                        5
REVIEW PREPARATION
How do I select the sample size of purchase card transactions to review?

•   If you want to project your findings you will need to do a statistical sample, such as a stratified
    random probability sample. But if a statistical instead of a judgmental sample is used, care must be
    taken to credibly develop the sample size and confidence level. We recommend looking at the
    financial records and supporting documentation for several separate time periods, as this could
    reveal any trends in the process. Chose a representative sample of purchase card transactions
    consistent with the size of the agency and your own resources.

•   Another approach to examining purchase cards could involve taking a
    “snapshot” of transactions rather than a statistical sample. The
    “snapshot” is a list of transactions that are judgmentally
    determined to be problems or indicators of problems based
    on specific attributes.

Why must financial records be checked?

•   The basis of the review must be quantifiable. Narrative interview
    information is important but does not quantify a problem.
    Noncompliance found by reviewing financial accounting records is
    the proof that the weaknesses identified in the review resulted in harm
    to the agency.

•   Interviewees may not be aware of problems or the extent of the problems.

What records should be checked?

•   Check the individual cardholder records for supporting documentation, for example, invoices,
    sole-source justifications, purchase logs, object-class codes, and records of competitive bids.

•   Check the records in OCFO or the designated billing office for receipt of signed statements, prompt
    payment, and other procedural requirements.

•   Check the integration of electronic-based systems to support common business processes. The
    purchase card contractor should provide invoices electronically to the designated billing offices,
    accept payments electronically from federal government payment centers, and provide electronic
    access to account data and reports.

When should the records be checked relative to the interviews?

•   Conduct the interviews first. The interviews may provide information on issues such as split
    procurements and card sharing that might highlight the need to examine specific records. However,
    there might be occasions when it would be helpful to look at the records first.

                                                     6
CONDUCTING THE REVIEW
How should interviews be conducted and recorded?

•   Experience has shown that interview teams of two evaluators/auditors—one person focusing on
    conducting the interview and the other taking notes and writing up the interview—are effective.
    The interviewer will then review the write-up and make any additions or corrections. The
    interview team can reverse roles for the next interview.

•   Developing an interview template for recording results in a consistent manner is a very useful
    tool, especially when a number of teams are operating at the same time. A copy of the ED/OIG
    Record of Interview template (see Attachment 2) is available at http://www.ed.gov/offices/
    OIG/AIReports.htm

•   Adding an issue section to the end of each interview writeup in which problems are summarized
    is very useful when pulling together reports and addressing problems and trends. Listing any
    promised documents will help account for documentation and serve as a reminder for follow-up
    work.

COMMON PROBLEMS:
CONTROL WEAKNESSES AND NONCOMPLIANCE
Based on the OIGs’ experiences, what kinds of problems should I be looking for?

Control weaknesses

•   Inadequate review of purchases by approving officials. The approving official’s review is the
    most essential management element in the purchase card control system. The approving official
    is responsible for ensuring that all purchases made by the cardholder are appropriate and that the
    charges are accurate. Review of the purchase cardholder’s official invoice should be completed
    and resolved in time for it to be submitted for payment in accordance with the Prompt Payment
    Act. Prior approval may be required for certain types of purchases.

•   Unmanageable span of control. The number of cardholders an approving official reviews
    should be manageable. For example, the Department of Defense suggests that an approving
    official review no more than five to seven cardholders. A recent GAO report noted that at one
    Navy facility, one approving official was responsible for 1,526 cardholders and, as a
    consequence, all purchases were “approved” before they were reviewed.




                                                      7
COMMON PROBLEMS:
CONTROL WEAKNESSES AND NONCOMPLIANCE
•   Excessive number of purchase cardholders. In the aforementioned example, the 1,526 cardholders
    represented 36 percent of the employees in the facility. There was no documentation justifying the
    need for that many employees to be cardholders. Further, such a proliferation of cardholders greatly
    increases the government’s financial exposure and makes it difficult to maintain effective internal
    controls. The lack of card activity should warrant a management review of a cardholder’s need of
    a card.

•   Exceeding authorized purchase limits. Management should be aware of the charge limits
    of their cardholders and monitor card use to ensure that cardholders do not exceed their
    assigned purchase level. Managers also should exercise extreme caution when increasing
    purchase levels for cardholders. For some increases, further training and the issuance of a
    warrant may be required.

•   Lack of documentation/inadequate documentation. The cardholder is responsible for
    documenting purchase receipt and acceptance of all acquired goods and services. Documentation
    must be submitted that supports sole-source purchases or purchases based on multiple bids.
    Documentation should clearly identify what was purchased, from where, and by whom.

•   Inappropriate purchase method. Look at the agency acquisition guidance to determine whether
    goods and services such as software and other equipment upgrades should have been paid by
    purchase card or whether the items should be subject to purchase orders or negotiated contracts.

•   Unrecorded accountable property. Invoices for purchases such as Palm Pilots, computers, and
    flat screens should contain product serial numbers that should be entered into the appropriate control
    systems, which will allow you to match the invoice numbers with the equipment purchased. Proper
    recording and accounting of equipment is essential to ensure accountability for government property
    and prevent theft or misuse. Each agency should define the dollar threshold for recording accountable
    property and sensitive items.

•   Lack of security over the purchase card. Agency procedures must address safeguarding purchase
    cards when not in use. Cards should be safeguarded in the same manner as cash.

•   Inadequate agency purchase card directive. Review your agency’s purchase card directive. The
    Treasury Financial Manual, Vol. 1, Part 4, Section 4525, requires each agency to have its own
    internal procedures for using purchase cards. Review the agency directive against the Treasury
    Financial Manual. It should comply with the established criteria, contain the procedures to be
    followed with the current contractor, and have provisions to address various types of problems
    described in this guide.

•   Inadequate training/lack of documented training for cardholders and approving officials.
    Training is an essential human capital activity to ensure that employees have the skills to carry out
    their responsibilities. Purchase card training should be comprehensive to ensure all cardholders and
    approving officials are adequately trained. Records should indicate training taken, when taken,
    and, if appropriate, when refresher training is due.


                                                      8
COMMON PROBLEMS:
CONTROL WEAKNESSES AND NONCOMPLIANCE
•   Inappropriate object class. Purchases should not be routinely grouped into one miscellaneous
    or object class but, rather, recorded in the appropriate accounting classification. The Office of
    Management and Budget (OMB) Circular A-11, Preparation and Submission of Budget
    Estimates, requires federal agencies to report obligations and expenditures by object class, thus
    indicating the nature of the expenditure. Object classification data are reported in the President’s
    Annual Budget submission to Congress. Accurate object class data are critical to the reliability
    of the President’s budget submission and to budget projections based on this data. In addition,
    Congress has asked for and is using object class information for oversight activities. Inaccurate
    reporting by object class could impede congressional oversight.

•   Late payments. Invoices should be paid in accordance with the Prompt Payment Act. They
    should also be date stamped when received to establish the proper payment due date under the
    Act.

•   Inadequate reconciliation. The monthly purchase card statements for the individual principal
    offices should be reconciled with the agency-wide statement and with the agency accounting
    system to ensure that the payment is accurate. There should be a system in place to track and
    account for any missing statements.

Noncompliance

•   Nonreferral of potentially fraudulent purchases. All suspected fraud must be reported to the
    agency’s OIG. In cases of identified misuse of a purchase card, review the agency personnel
    records for disciplinary action taken and to determine whether the incident was reported to OIG.

•   Unauthorized and potentially fraudulent purchases. Items purchased that are not likely to
    have been purchased for official use or were not authorized could include such items as home
    furnishings, toys, cosmetics, groceries, gift certificates, jewelry, and clothing. Such purchases
    should be examined and, as appropriate, referred to the OIG’s criminal investigators.

•   Abusive purchases/no documented need. Review purchases to determine whether they were
    for appropriate government use, from designated government sources, or obtained at excessive
    cost. An example might be the purchase of flat screen monitors for between $800 and $2,500
    when a regular 17-inch monitor is available from the GSA schedule for $300. Other examples
    are purchases of Palm Pilots with designer carrying cases and designer briefcases when there is
    no documented government need for such items.

•   Improper split procurements. The Federal Acquisitions Regulation (FAR), 48 C.F.R.
    13.003(c), prohibits submitting individual purchase documentation to “avoid any requirement
    that applies to purchases exceeding the micro purchase threshold.” Indicators of such action
    include sequential invoice numbers, receipts close in time—for example, minutes apart—and
    sequential purchase orders with similar items purchased the same day.




                                                       9
COMMON PROBLEMS:
CONTROL WEAKNESSES AND NONCOMPLIANCE
•   Credit card sharing or use by unauthorized individual. Treasury Department policy states
    that only the person assigned the purchase card may use that card. In addition, if an approving
    official uses a cardholder’s purchase card to make purchases, there may be no separation of
    duties when the approving official makes and reviews his or her own purchases. Likewise,
    contractors that provide administrative or procurement support services to an agency are not
    permitted to place vendor orders on behalf of the civil servants they support.

•   Improper transactions. The FAR, 48 C.F.R. 13.301(a), states that the purchase card “may be
    used only for purchases that are otherwise authorized by law or regulations.” Thus, the purchase
    of personal items such as flowers or food for employees are only lawful if it would be lawful
    using conventional procurement methods.

•   Sole-source purchases without appropriate documentation. The FAR, 48 C.F.R. 13.106-3(b),
    requires solicitation of quotes or bids from a reasonable number of sources or, in lieu of that,
    sole source justifications for any purchase of more than $2,500.

•   Failure to use required sources of supply. The FAR, 48 C.F.R. 8.001, requires agencies to
    acquire supplies and services from designated sources, if those sources are capable of providing
    them.




COMMUNICATING RESULTS
What is an effective way to communicate the results of your review?

•   Individual reports to the appropriate senior officials (e.g. often Assistant Secretaries or their
    equivalent) provide specific information to managers so they can make management
    improvements. Producing a report will require that individual interviews be reviewed
    collectively as one document and analyzed. Look for areas of agreement, as well as
    disagreement. Where substantial disagreements cannot be resolved, additional interviews may be
    necessary. See http://www.ed.gov/offices/OIG/ (Attachment 3) for individual report samples.

•   A summary or capping report will give the senior agency management an overall look at the
    program and provide the basis for agency-wide corrective action. See http://www.ed.gov/
    offices/OIG/ (Attachment 4) for a summary report sample.

•   To add a positive note to the review results where appropriate, a best practices approach could be
    used to give senior management suggestions as to how systemic problems could be corrected or
    to share “best practices”noted.



                                                   10
FOLLOW-UP
What type of follow-up work should be undertaken?

•   If your agency issues a corrective action plan, review it to see whether the actions proposed will
    resolve the problems found. If the plan appears responsive and adequate, follow up on
    implementation within the projected time frames. After allowing sufficient time for the problems
    to be resolved, select financial records for use in conducting a similar review, but not necessarily
    as large as the first one. If, for example, the initial review revealed that statements had been
    received without the required approving official’s signature, look at two or more sets of monthly
    statements to determine whether this is still the case. See http://www.ed.gov/offices/OIG/
    (Attachment 5) for samples of follow-up reports.




                                                      11
                                                                                           Appendix 1
RESOURCE LIST FOR PURCHASE CARD REVIEWS
The following OIG and General Accounting Office reports and resources are just a sample of the
numerous audit, inspection and other reports that the various OIGs and GAO have issued on the
purchase card program. Many of them were used to prepare this guide or could be used in preparing
to conduct purchase card reviews. However, this list is not inclusive. Websites of the various
Offices of Inspector General, as well as the GAO, should be consulted for additional resources.

U.S. Department of Agriculture OIG

Security Over the Purchase Card Management System
50099-25-FM/January 2001

U.S. Department of Commerce OIG

National Institute of Standards and Technology – Internal Controls Over NIST’s Bankcard Program Need
Improvement DEN-11787/March 2001

Patent and Trademark Office – Minor Internal Control Deficiencies Found in Bankcard Program
BTD-10901-9-0001/March 1999

National Telecommunications and Information Administration – Internal Controls Over Bankcard
Use Are Sound
BTD-11549-9-0001/September 1999

Minority Business Development Agency – Internal Controls Over Bankcard Use Are Sound
BTD-12022-0-0001/December 1999

Bureau of the Census – Atlanta Bankcard Purchases Need Improved Internal Controls
ATL-10316-8-001/March 1998

Office of the Chief Financial Officer and Assistant Secretary for Administration – Commerce’s Purchase
Card Program Needs Stronger Internal Controls and Oversight
EAD-7301-0001/September 1995

U.S. Department of Education OIG

Department-wide Purchase Card Statement Late Notices for June 2001
ED-OIG/A&I 2001-05/November 20, 2001 (PDF Format 222k)

Follow-up Review of Internal Controls Over Purchase Cards
ED-OIG/A&I 2001-04/September 28, 2001 (PDF Format 564k)

OIG Review of Student Financial Assistance’s (SFA) Performance Plan and draft report
ED-OIG/A&I 2001-02 September 24, 2001 (PDF Format 972k)



                                                     12
                                                                                        Appendix 1
RESOURCE LIST FOR PURCHASE CARD REVIEWS
OIG Review of OVAE’s Internal Controls Over the Procurement of Goods and Services
April 18, 2000 (PDF Format 36k)

OIG Review of OBEMLA’s Internal Controls Over the Procurement of Goods and Services
A&I 2000-003/May 23, 2000 (PDF Format 45k)

OIG Review of OESE’s Internal Controls Over the Procurement of Goods and Services
A&I 2000-002/May 22, 2000 (PDF Format 49k)

OIG Review of OM’s Internal Controls Over the Procurement of Goods and Services
A&I 2000-004/June 26, 2000 (PDF Format 48k)

OIG Review of OSERS’ Internal Controls Over the Procurement of Goods and Services
A&I 2000-005/July 19, 2000 (PDF Format 56k)

OIG Review of OCFO and OCIO Internal Controls Over the Procurement of Goods and Services
A&I 2000-006/July 26, 2000 (PDF Format 53k)

OIG Review of OERI’s Internal Controls Over the Procurement of Goods and Services
A&I 2000-009/August 28, 2000 (PDF Format 38k)

OIG Review of OCR’s Internal Controls Over the Procurement of Goods and Services
A&I 2000-007/August 2, 2000 (PDF Format 47k)

OIG Review of OIIA’s Internal Controls Over the Procurement of Goods and Services
A&I 2000-008/August 18, 2000 (PDF Format 41k)

OIG Review of OS/ODS/OLCA’s Internal Controls Over the Procurement of Goods and Services
A&I 2000-010/August 31, 2000 (PDF Format 41k)

OIG Review of OGC’s Internal Controls Over the Procurement of Goods and Services
A&I 2000-012/September 18, 2000 (PDF Format 39k)

OIG Review of OUS’s Internal Controls Over Procurement of Goods and Services
A&I 2000-011/September 19, 2000 (PDF Format 39k)

OIG Review of OPE’s Internal Controls Over the Procurement of Goods and Services
A&I 2000-013/September 19, 2000 (PDF Format 40k)

OIG Review of SFA’s Internal Controls Over the Procurement of Goods and Services Using Third Party
Drafts and Purchase Cards
A&I 2000-014/October 5, 2000 (PDF Format 61k)




                                                     13
                                                                                        Appendix 1
RESOURCE LIST FOR PURCHASE CARD REVIEWS
OIG Review of Internal Controls Over the Use of Purchase Cards and Third Party Drafts
A&I 2000-015/October 13, 2000 (PDF Format 39k)

U.S. Department of Energy OIG

Inspection of Lawrence Livermore National Laboratory Credit Card Usage and Property Management
Concerns
INS-0-01-01/February 2001

General Services Administration OIG

OIG Review of Management Controls Over Purchase Cards, Federal Supply Service, Pacific Rim Region
A995326/F/9/V00004/February 29, 2000

U.S. Department of the Interior OIG

Use of the Governmentwide Purchase Card, Office of the Secretary
99-I-375/March 1999

Use of the Governmentwide Purchase Card, Office of Surface Mining Reclamation and Enforcement
98-I-197/January 1998

Use of the Governmentwide Purchase Card, Bureau of Indian Affairs
98-I-283, February 1998

Use of the Governmentwide Purchase Card, Bureau of Reclamation
98-I-253, February 1998

Use of the Governmentwide Purchase Card, U.S. Geological Survey
98-I-316, March 1998

Use of the Governmentwide Purchase Card, Bureau of Land Management
98-I-352, March 1998

U.S. Department of State OIG

Survey of the Worldwide Purchase Card Program. Domestic Operations
01-FMA-M-081, September 2001

U.S. Department of Transportation OIG

Use of Government Credit Cards Department of Transportation
FI-2001-095, September 2001




                                                    14
                                                                                     Appendix 1

RESOURCE LIST FOR PURCHASE CARD REVIEWS

U.S. Department of Veterans Affairs OIG

Audit of the Department of Veterans Affairs Purchase Card Programs
Report no. 9R3-E99-037 February 12, 1999

Combined Assessment Program Review of the VA New York Harbor Healthcare Systems
Report no. 00-01223-104 dated August 3, 2000

United States General Accounting Office

Purchase Cards – Control Weaknesses Leave Two Navy Units Vulnerable to Fraud and Abuse
GAO-02-32/November 2001




                                                      15
                                                                                        Appendix 2

GAO’S STANDARDS FOR INTERNAL CONTROLS
IN THE FEDERAL GOVERNMENT

Components of Internal Controls

•   Control Environment – Management and employees should establish and maintain an
    environment throughout the organization that sets a positive and supportive attitude toward
    internal controls and conscientious management.



    Factors:

       ü Management and staff maintain and demonstrate integrity and ethical values.

       ü Management maintains an active commitment to competence.

       ü Management’s philosophy and operating style exert a positive influence on the
         organization (especially toward information systems, accounting, personnel functions,
         monitoring and audits).

       ü Organizational structure is appropriately centralized or decentralized, and facilitates the
         flow of information across all activities.

       ü Agency delegates authority and responsibility and establishes related policies throughout
         the organization in a manner that provides for accountability and control.

       ü Agency establishes human resource policies and practices that enable it to recruit and
         retain competent people to achieve its goals.




•
                                       March 2002
    Risk Assessment – Internal controls should provide for an assessment of the risks the agency
    faces from both external and internal sources.

ü Precondition – establishment of clear and consistent agency objectives.




                                                   16
                                                                                        Appendix 2
GAO’S STANDARDS FOR INTERNAL CONTROLS
IN THE FEDERAL GOVERNMENT Continued

    ü Risk assessment – the comprehensive identification and analysis of relevant risks associated
      with achieving agency objectives, like those defined in strategic and GPRA annual
      performance plans, and forming a basis for determining how the agency should manage risks.

    ü Risk identification – methods may include qualitative and quantitative ranking activities,
      management conferences, forecasting and strategic planning, and consideration of findings
      from audits and other assessments.

    ü Risk analysis – generally includes estimating the risk’s significance, assessing the likelihood
      of its occurrence, and deciding how the agency should manage its risk.


•   Control Activities – Internal control activities help ensure that employees carry out management
    directives. The control activities should effectively and efficiently accomplish agency control
    objectives.

    ü The control activities are the policies, procedures, techniques, and mechanisms that enforce
      management’s directives. They help ensure that employees take actions to address risks.

    ü Control activities occur at all levels and functions of the entity, and include a wide range of
      diverse activities such as approvals, authorizations, verifications, reconciliations,
      performance reviews, maintenance of security, and creation and maintenance of related
      records that document the execution of these activities.


•   Information and Communications – Employees should record and communicate information
    to management and others within the entity who need it in a form and within a time frame that
    enables them to carry out their internal control (and other) responsibilities effectively and
    efficiently.

       ü An organization must have relevant, reliable, and timely communications relating to
         internal as well as external events. Information is needed throughout the agency to
         achieve all its operational and financial objectives.

       ü Effective communications should occur in a broad sense with information flowing down,
         across, and up the organization.

       ü Management should ensure there are adequate means of communicating with, and
         obtaining information from, external stakeholders that may have a significant impact on
         the agency achieving its goals.

                                                      17
                                                                                     Appendix 2
GAO’S STANDARDS FOR INTERNAL CONTROLS
IN THE FEDERAL GOVERNMENT Continued

•   Monitoring – Internal control monitoring should assess the quality of performance over time and
    ensure that audit and other review findings are promptly resolved.

       ü Includes regular management and supervisory activities, comparisons, reconciliations,
         and other actions employees take in performing their duties.

       ü Should include policies and procedures for ensuring that audit and other review findings
         are promptly resolved.




                                                  18
                                                                                   Attachment 1.1

GUIDE FOR INTERVIEWS
OF PURCHASE CARDHOLDERS

Purpose of the interview – To obtain information on the
processes that the principal office component (POC) uses
to ensure compliance with laws and regulations during the
procurement of goods and services using the government
purchase card.

Background – The purchase cardholder’s primary
functions are to purchase goods or services in accordance
with established policy and procedures, reconcile monthly
statements, attach daily order logs to reconciled statements,
note any disputed items and complete questioned item
forms explaining reason for any disputed items, forward
signed copies of reconciled statements with any questioned item forms to the Approving Official within
established time frames, maintain supporting documentation, and safeguard the card against theft.

Preparation for the interview –
Obtain from the POC the following information:
       (1)    Name of the purchase cardholder
       (2)    Name of the purchase cardholder’s Supervisor
       (3)    Name of the purchase cardholder’s Approving Official
       (4)    Name of the purchase cardholder’s Administrative/Executive Officer
       (5)    Spending Limits
       (6)    Any other pertinent information that may be readily available
              (e.g. training record, warrants)




                                                     19
SECTION I                                                                      Attachment 1.1
Questions about the purchase cardholder’s
experience and training        The purpose of these questions is to obtain information about the purchase
                                                           cardholder’s workload, experience and training. Collectively, the answers
                                                           to these questions will provide information about how the POC staffs the
                                                           purchase cardholder function that, in turn, provides information about the
                                                           control environment. Note: First, verify the interviewee’s name and his/
                                                           her supervisor.



          Interview Questions                                                GAO Standard
     1. How were you selected to be a cardholder?                 Control Environment – Commitment to Competence

     2. How long have you been a cardholder?                      Control Environment – Management Philosophy and
                                                                  Operating Style
        **Possible follow-up – explain your purchase
          card/procurement experience.

     3. What is your purchase card single purchase
       limit?

        If appropriate, if more than $2,500, do you have
         a warrant?

       What steps/procedures/ training were followed
       for you to receive the warrant?

     4. Are your purchase cardholder responsibilities             Control Environment – Assignment of Authority
        included in your performance plan? Recognized             and Responsibility
        in your appraisal?

     5. In addition to your purchase card                         Control Environment – Assignment of Authority
        responsibilities, please describe your other              and Responsibility
        responsibilities.

        How do those responsibilities
        impact your purchase card responsibilities?

       What percentage of your time is spent on
       purchase card activities?

       Which of your responsibilites takes precedence?

        How do you manage these competing priorities?
                                                                   Control Environment – Commitment to Competence
     6. What are the purchase cardholder training
        requirements?

        Have you taken all required training?

        Was the training sufficient?

     7. Have you taken or planned refresher training?

                                                           20
SECTION II                                        Attachment 1.1
Questions about how the cardholder performs his/her duties
                                                           The purpose of these questions is to obtain information about how the
                                                           purchase cardholder performs his/her duties. The answers to these
                                                           questions will provide information about Control Activities, Information
                                                           and Communication, and Monitoring. Note: During this section, the
                                                           purchase cardholder should show you documents, such as his/her daily
                                                           log. Add notes as needed and maintain them.


         Interview Questions                                                  GAO Standard
    1.   Briefly describe the steps/process that you
         follow to purchase an item/items using your
         purchase card.

    2.   What type of goods and services do you
         generally purchase?

    3.   Has anybody else ever used your card? Is so,
         why and is your approving official aware of
         this practice and did they approve it?

    4.   When you review and reconcile monthly                       Understanding the Process
         purchase statements, what are you looking for?
         (Price accuracy, receipt of goods received)                 Control Activities
  Follow-up questions
    ü    What supporting documents do you maintain?
              Note - Review daily logs and other
              supporting documentation.
    ü    Who else reviews the monthly statements?
         Approving official?
    ü    What supporting documents do you maintain to
         ensure that statements submitted to CFO are
         supported with adequate documentation?
         Monthly folder – contains requests; also copies
         of daily receipts/ invoices.
    ü    Have you ever been late in reconciling your
         statement?
    ü    Where do you keep your purchase card?
    5.   Have you ever questioned monthly statement
         costs?
         If so, what procedures did you follow?

         Fill out bank dispute form and submit with
         monthly statement to the approving official.

    6.   As a cardholder, if you decide to decline a
         deliverable, what procedures do you follow?
    7.   As a cardholder, have you ever needed to ask
         the vendor to ship goods somewhere other than
         to Departmental property? If so, where?
         Why?



                                                             21
                                                                                         Attachment 1.1
SECTION II Continued
Questions about how the cardholder performs his/her duties




         Interview Questions                                          GAO Standard
   8. As a cardholder, how would you respond to
      vendor performance problems?

      Follow-up: Have you had occasion to do so in
      the past?

      Did management support you?

   9. Describe how you work with the approving                  Information and Communication
      official and the administrative executive officer.
        (Note: May be same person.)

      Follow-up: Are there other approving officials
      within your principal office component (POC?)



  10. Do you have sufficient time to perform your
      duties adequately as a Purchase cardholder?

      Follow-up: Are you overly pressured to meet
      deadlines?

  11. What guidance (POC, agency, and                           Information
      Government-wide) do you follow as a
      purchase cardholder, including any specific
      written procedures?




                                                           22
                                                                                                  Attachment 1.1
SECTION III
Questions about the purchase
cardholder’s work in relation to the office
                                                            The purpose of these questions is to obtain information about the
                                                            Control Environment, Information and Communication and
                                                            Monitoring.



           Interview Questions                                          GAO Standard
   1.   What resources do you need to accomplish                 Control Environment – Management Philosophy
        your tasks as purchase cardholder?
        Do you have them?

        What is not being accomplished if you don’t?

  2.    Who provides you purchase card information               Information
        requirements?

  3.    Within the last month, have your supervisors              Control Environment – Management Philosophy
        or others asked you questions about purchase
        card transactions that you handled?
  4.    As a purchase cardholder, what support do
        you expect from your approving official
        and administrative/executive officer?

  5.    Do you have the authority you need to carry              Control Environment – Assignment of Authority
        out your purchase cardholder duties?                     and Responsibility

  6.    How often does your supervisor and                       Control Environment – Human Resource
        approving official meet with you to review               Policies and Practices
        your purchase cardholder job performance and
        provide improvement suggestions?




                                                       23
                                                                                                  Attachment 1.1
SECTION IV
Questions about ethics and ethics training
                                                            The purpose of these questions is to ascertain the extent of ethics
                                                            training and the organization’s commitment to integrity and
                                                            ethical values.



         Interview Questions                                            GAO Standard

    1.   How does the Department provide                    Control Environment – Integrity and ethical values
         Standards of Conduct information to you?
    2.   Does the Department’s required ethics              Control Environment – Integrity and ethical values
         training provide adequate information to
         you? Why/Why not?

    3. Do you believe ethics training specifically          Control Environment – Integrity and ethical values
       for procurement staff would be beneficial?

    4.   How does your office convey a                      Control Environment – Integrity and ethical values
         commitment to integrity and ethical values?

    5.   When you have a question about ethics or
         the Standards of Conduct, whom do you go
         to?




                                                       24
                                                                                          Attachment 1.1
SECTION V
Questions about the goals
and risks of procurement activities
                                                                       The purpose of these questions is to obtain
                                                                       information about the control element of Risk
                                                                       Assessment.




         Interview Questions                                      GAO Standard
    1.   How do purchase card procurements                  Risk Assessment – Objectives
         affect program operations in your office?


    2.   When was the last time you had a discussion        Risk Assessment – Risk
         with fellow principal office personnel/
         management about vulnerabilities associated
         with purchase card purchases?

         Follow-up: Tell me about the discussion.

    3.   What has been done to minimize purchase            Risk Assessment - Risk
         card purchase risks?




                                                       25
                                                                                                          Attachment 1.1
SECTION VI
Questions about how a non-compliance
or ethical situation is handled The purpose of these questions is to (1) allow the interviewee an
                                opportunity to identify any situation that has occurred where the
                                                                  interviewee believed there may have been an ethical or compliance
                                                                  issue and (2) to obtain information about whether the purchase
                                                                  cardholder understands how to handle a situation where there is an
                                                                  ethical or compliance issue.



              Interview Questions                                                 GAO Standard
     1.   As a purchase cardholder, have you ever                          Control Environment – Follow-up
          encountered a situation where you believed                       Communication and Information
          that the vendor was deficient (i.e., not meeting                 Monitoring
          your expectations) or that the agency did not
          receive its money’s worth?
          If yes, what did you do about it?

          IF YES, Potential follow-up questions (ask as
          necessary) Note: These questions, both yes
          and no, can be used for the next two questions
          also.

          ü   Did you document it in your files?
          ü   Whom did you report the matter to?
          ü   How did the person you reported to deal
              with the matter?
          ü   How was it resolved?
          ü   Has management established lines of
              reporting to address this situation?

     IF NO, what would you do if you encountered
     such a situation?

     Potential follow-up questions (ask as necessary)
        ü Would you feel comfortable telling
              management (supervisor, supervisor’s
              superior)?
         ü Whom would you report the matter to?
         ü How would you expect them to deal with
              the matter?

    2.    As a purchase cardholder, have you ever                         Control Environment – Follow-up
          encountered a situation where you had                           Communication and Information
          misgivings (i.e., ethical concerns) about what                  Monitoring
          you were asked to do by the authorizing
          official, executive officer, or other agency
          officials?

          If yes, what did you do about it?




                                                             26
                                                                                         Attachment 1.1
SECTION VI Continued
Questions about how a non-compliance
or ethical situation is handled




         Interview Questions                                         GAO Standard
  3.   As purchase cardholder, have you ever                 Control Environment – Follow-up
       encountered a situation where you suspected           Communication and Information
       that someone having an interest in the                Monitoring
       procurement process may have violated the
       law or possibly committed a crime?

       If yes, what did you do about it?


  4.   Are you aware of the requirement to report all        Communication
       indications of fraud or criminal activities to
       the OIG, including using the hotline. If so,
       have you ever needed to report a purchase
       card or procurement-related condition?




                                                        27
                                                                                        Attachment 1.1
SECTION VII
Questions about purchase
cardholder’s evaluation of the system


            Interview Questions                                       GAO Standard
     1.   How would you rate communication                       Communication
          between staff involved in the purchase card
          process?

     2.   What type of communication is there
          between your POC’s purchase card staff and
          CFO staff that you interact with as part of the
          process?

          Do you have any ideas about improving the
          process?

     3.   Does your approving official have the                  Control Environment – Commitment to
          necessary knowledge and skills to be a good            Competence
          approving official?

          Does your administrative or executive officer
          have the knowledge and skills to oversee
          purchase card activity?




Final question:

Are there any other areas we did not cover that you want to share with us?




                                                            28
                                                                Attachment 1.2

GUIDE FOR INTERVIEWS
OF APPROVING OFFICIALS

Purpose of the interview – To obtain information on the
processes used in the principal office component (POC) to
ensure compliance with laws and regulations during the
procurement of goods and services with government purchase
cards.

Background – The approving official is the key control
individual in the process. The approving official’s review of
the credit card purchases is the essential control component
in the process.




                                                     29
                                                                                                      Attachment 1.2


SECTION I
Questions about the approving official’s
experience and training
                                                              The purpose of these questions is to obtain information on the
                                                              approving official’s workload, experience and training.
                                                              Collectively, the answers to these questions will provide information
                                                              on how the POC staffs the approving official function that, in turn,
                                                              provides information about the Control Environment. Note: First,
                                                              verify the interviewee’s name and his/her supervisor.




           Interview Questions                                             GAO Standard
   1.   How and why were you selected to be an                Control Environment – Commitment to Competence
        approving official?

   2.   How long have you been an approving official?         Control Environment – Management Philosophy and
                                                              Operating Style
   3.   Describe your responsibilities as an approving        Control Environment – Organizational Structure
        official?
  4.    Are your approving official responsibilities          Control Environment – Organizational Structure
        included in your position description?
  5.    Are your approving official responsibilities          Control Environment – Assignment of Authority
        included in your performance plan as an               and Responsibility
        element that you are rated on? Are they
        recognized in your appraisals?

  6.    In addition to your approving official work,          Control Environment – Assignment of Authority
        what are your other responsibilities?                 and Responsibility

        How do those responsibilities impact your
        approving official work?

        Which of your responsibilities takes
        precedence?

        How do you manage your competing
        priorities?

  7.    What are the training requirements for                Control Environment – Commitment to Competence
        approving officials?

        Have you taken all the required
        training including refresher training?




                                                         30
                                                                                                    Attachment 1.2
SECTION II
Questions about the approving official
performs his/her duties
                                                            The purpose of these questions is to obtain information about how
                                                            the approving official performs his/her duties. The answers to these
                                                            questions will provide information about Control Activities,
                                                            Information and Communication, and Monitoring.




        Interview Questions                                            GAO Standard
   1.   When you review purchase card invoice                       Understanding the Process
        costs, what are you looking for?
                                                                    Control Activities
   ü    What practices/procedures are in place to
        ensure that the vendor invoices submitted
        are supported with adequate
        documentation?

   ü    What do you consider “adequate”
        documentation?


   2.   As an approving official, have you ever
        questioned invoice costs? If so, how did you
        handle the situation?

   3.   Are annual or periodic reviews required?
        Have you conducted them?




                                                       31
                                                                                                  Attachment 1.2
SECTION III
Questions about the approving official’s work
in relation to the office
                                                            The purpose of these questions is to obtain information about the
                                                            Control Environment, Information and Communication and
                                                            Monitoring.




          Interview Questions                                           GAO Standard
   1.   How is information related to purchase                   Control Environment – Organizational Structure
        cards communicated?

   2.   What expectations for purchase card                      Control Environment – Management Philosophy
        procurement does management convey?

   3.   What resources do you need to accomplish                 Control Environment – Management Philosophy
        your task as an approving official?

        Do you have them?

        What is not being accomplished if you don’t?




                                                       32
                                                                                               Attachment 1.2
SECTION IV
Questions about ethics and ethics training

                                                       The purpose of these questions is to ascertain the extent of ethics
                                                       training and the organization’s commitment to integrity and ethical
                                                       values.




         Interview Questions                                          GAO Standard

    1.   How does the Department provide                    Control Environment – Integrity and ethical values
         Standards of Conduct information to you?
    2.   Does the Department’s required ethics              Control Environment – Integrity and ethical values
         training provide adequate information to
         you? Why/Why not?

    3.   How does your office convey a                      Control Environment – Integrity and ethical values
         commitment to integrity and ethical values?

    4.   When you have questions about ethics,              Control Environment – Integrity and ethical values
         Standards of Conduct, whom do you go to?




                                                       33
SECTION V                                                                                     Attachment 1.2
Questions about the goals
and risks of procurement activities

                                                       The purpose of these questions is to obtain information about the
                                                       control element of Risk Assessment.




       Interview Questions                                          GAO Standard
    1. When was the last time you had a                     Risk Assessment – Risk
       discussion about the vulnerabilities
       related to purchase card?
                                                            Risk Assessment - Risk
      Follow-up: Tell me about the discussion.

    2. What has been done to limit these risks?




                                                  34
SECTION VI                                                                                Attachment 1.2
Questions about how a non-compliance
or ethical situation is handled
                                                        The purpose of these questions is to (1) allow the interviewee
                                                        an opportunity to identify any situation that has occurred
                                                        where the interviewee believed there may have been an ethical
                                                        or compliance issue and (2) to obtain information on whether
                                                        the approving official understands how to handle a situation
                                                        where there is an ethical or compliance issue.



        Interview Questions                                   GAO Standard
                                                         Control Environment – Follow-up
   1. As an approving official, have you ever            Communication and Information
      encountered a situation where you believed         Monitoring
      that the vendor of goods or services was
      deficient (i.e., not meeting your
      expectations) or that the agency was not
      receiving its money’s worth? Has
      management established lines of reporting?

       IF YES, what did you do about it?
       Potential follow-up questions (ask as
       necessary)
           ü Did you document it in your files?
           ü Whom did you report the matter to?
           ü How did the person you reported it
                to deal with the matter?
           ü How was it resolved?

       IF NO, what would you do if you
       encountered such a situation?
       Potential follow-up questions (ask as
       necessary)
           ü Would you feel comfortable telling
                management (supervisor,
                supervisor’s superior,)?
            ü Whom would you report the matter
                to?
            ü How would you expect them to
                deal with the matter?




                                                   35
SECTION VI Continued                                                                      Attachment 1.2
Questions about how a non-compliance
or ethical situation is handled




           Interview Questions                                         GAO Standard
   2.   As an approving official, have you ever               Control Environment – Follow-up
        encountered a situation where you had                 Communication and Information
        misgivings (i.e., ethical concerns) about what        Monitoring
        you were asked to do?

        IF YES, what did you do about it?
            Potential follow-up questions (ask as
            necessary)
            ü Did you document it in your files?
            ü Whom did you report the matter to?
            ü How did the person you reported it
                to deal with the matter?
            ü How was it resolved?

        IF NO, what would you do if you
            encountered such a situation?
            Potential follow-up questions (ask as
            necessary)
            ü Would you feel comfortable telling
                 management?
            ü Whom would you report the matter
                to?
            ü How would you expect them to
                deal with the matter?


  3.    As an approving official, have you ever               Control Environment – Follow-up
        encountered a situation where a vendor of             Communication and Information
        purchase card goods or services was in non-           Monitoring
        compliance (violation) with the terms of the
        contract, or related rule or regulation? Has
        management established lines of reporting?

        IF YES, what did you do about it?
            Potential follow-up questions (ask as
            necessary)
            ü Did you document it in your files?
            ü Whom did you report the matter to?
            ü How did the person you reported it
                to deal with the matter?




                                                         36
SECTION VI Continued                                                                     Attachment 1.2
Questions about how a non-compliance
or ethical situation is handled




        Interview Questions                                         GAO Standard
           ü    How was it resolved?                         Control Environment – Follow-up
                                                             Communication and Information
   IF NO, what would you do if you encountered               Monitoring
   such a situation?
            Potential follow-up questions (ask as
            necessary)
            ü Would you feel comfortable telling
                 management? (Whom would you
                 report the matter to?
            ü How would you expect them to deal
                 with the matter?

  4. As an approving official, have you ever                 Control Environment – Follow-up
      encountered a situation where you suspected            Communication and Information
      that the vendor, or someone else having an             Monitoring
      interest in the procurement process, may have
     violated the law or possibly committed a crime?
      Has management established lines of
      reporting?

   IF YES, what did you do about it? Potential
   follow-up questions (ask as necessary)
           ü Did you document it in your files?
           ü Whom did you report the matter to?
           ü How did the person you reported it
               to deal with the matter?
           ü How was it resolved?

   IF NO, what would you do if you encountered
    such a situation?
       Potential follow-up questions (ask as
       necessary)
            ü Would you feel comfortable telling
                  management (supervisor,
                  supervisor’s superior, approving
                  official, and contracting officer)?
             ü Whom would you report the matter
                   to?
             ü How would you expect them to deal
                  with the matter?


                                                        37
SECTION VI Continued                                                         Attachment 1.2
Questions about how a non-compliance
or ethical situation is handled




       Interview Questions                                         GAO Standard

   5. Are you aware of the requirement to report             Communication
      all indications of fraud or criminal activities
      to the OIG, including using the hotline? If
       so, have you ever needed to report a
      purchase card or procurement-related
      condition?


   6. Have you ever used the OIG hotline to                  Communication
      report a condition related to purchase
      cards or procurement?

   7. What ethical standards are vendors held to?            Communication




                                                        38
SECTION VII                                          Attachment 1.2
Questions about approving official’s evaluation of the system

                                                          The purpose of these questions is to obtain the approving official’s
                                                          evaluation of the procurement process.




            Interview Questions                                          GAO Standard

     1.   What type of communication is there                     Communication
          between the staff involved in the purchase
          card process? Do you have any ideas for
          improving it?

     2. Have you identified any best practices related
        to the purchase card program? Have you
        shared these with others? Please share them
        with us!




Final question:

Are there any other areas we did not cover that you want to share with us?




                                                         39
                                                         Attachment 1.3

GUIDE FOR INTERVIEWS
OF ADMINISTRATIVE/EXECUTIVE OFFICERS



Purpose of the interview – To obtain information on
the processes used by (specific office) to ensure
compliance with laws and regulations during the
procurement of goods and services using the government
purchase card.




                                                 40
                                                                                                 Attachment 1.3


SECTION I
Questions about the administrative/executive officer’s
experience and training
                                                     The purpose of these questions is to obtain information on the
                                                     administrative/executive officer’s workload, experience and training.
                                                     Collectively, the answers to these questions will provide information
                                                     on how the PO staffs the administrative/executive officer function that,
                                                     in turn, provides information about the Control Environment.



           Interview Questions                                         GAO Standard

  1.   How long have you been an administrative/          Control Environment – Management Philosophy
       executive officer?

  2.   Describe your responsibilities as an               Control Environment – Commitment to Competence
       administrative/executive officer?                  and Operating Style

  3.   How were you selected to be an                     Control Environment – Organizational Structure
       administrative/executive officer?

  4.   Are your administrative/executive officer          Control Environment – Organizational Structure
       responsibilities included in your position
       description? As a performance appraisal
       rating element(s)?

  5.   In addition to your administrative/                Control Environment – Assignment of Authority
       executive officer work, what are your other        and Responsibility
       responsibilities?

       Which of your responsibilities takes
       precedent?

   6. What experience do you have in the purchase         Control Environment – Organizational Structure
      card process?

  7.   Have you had any formal purchase card              Control Environment – Commitment to Competence
       training? When? What?




                                                     41
                                                                                                    Attachment 1.3
SECTION II
Questions about how the administrative/executive officer
performs his/her duties
                                                              The purpose of these questions is to obtain information about how
                                                              the administrative/executive officer performs his/her duties. The
                                                              answers to these questions will provide information about Control
                                                              Activities, Information and Communication, and Monitoring. Note:
                                                              Review the administrative/executive officer’s “Delegation of
                                                              Authority” – Warrant.




            Interview Questions                                              GAO Standard
   1.   Briefly describe your role in the purchase
        card process.

   2.   As an administrative/executive officer, have
        you ever questioned invoice costs? If so,
        how did you handle the situation?

   3.   How many purchase cards are currently active
        in your principal office component (POC)?
        Who are the card holders? Who retains the
        purchase card certification forms and the
        approving official’s certification forms?

   4.    What criteria are used to determine who is
         issued a purchase card and who decides?
        Do you think that the number of purchase
        cardholders is appropriate? Could be
         reduced?

   5.   How many approving officials for purchase
        cards does your POC have and who are they?

   6.   Describe the review/approval process you use
        for authorizing payment of purchase card
        billing statements? What documentation do
        you review? What do you question or not
        question (daily card holder purchase log)?


   7.   Do you ever experience situations where card
        holders are late in submitting their monthly
        statements to you? If so, what action have you
        taken to correct the situation?


   8.   Do you know the total dollar amount of
        purchases made each month with purchase
        cards assigned to staff in your office.



                                                         42
                                                                                               Attachment 1.3
SECTION III
Questions about the administrative/executive officer’s work
in relation to the office
                                                       The purpose of these questions is to obtain information about
                                                       the Control Environment, Information and Communication and
                                                       Monitoring.




            Interview Questions                                        GAO Standard
   1.   How is information related to purchase                 Control Environment – Organizational Structure
        cards communicated?

   2.   What expectations for purchase card                   Control Environment – Management Philosophy
        procurement does management convey?

  3.    What resources do you need to accomplish              Control Environment – Management Philosophy
        your administrative/executive officer tasks?
        Do you have them? What is not being
        accomplished if you don’t?

  4.    Who provides you information on purchase              Information
        card requirements?

  5.    Do you have the authority you need to have            Control Environment – Assignment of Authority
        to carry out your duties?                             and Responsibility

  6.    Who is monitoring your activities as                  Monitoring – Ongoing
        administrative/executive officer?

  7. How often does your supervisor meet with you             Control Environment – Human Resource
     to review job performance and provide                    Policies and Practices
      suggestions for improvement?




                                                       43
                                                                                                   Attachment 1.3
SECTION IV
Questions about ethics and ethics training
                                                            The purpose of these questions is to ascertain the extent of ethics
                                                            training and the organization’s commitment to integrity and ethical
                                                            values.




         Interview Questions                                             GAO Standard

    1.   How does the Department provide                      Control Environment – Integrity and ethical values
         Standards of Conduct information to you?
    2.   Does the Department’s required ethics                Control Environment – Integrity and ethical values
         training provide adequate information to
         you? Why/Why not?

    3.   How does your office convey a                        Control Environment – Integrity and ethical values
         commitment to integrity and ethical values?

    4.   When you have questions about ethics,                Control Environment – Integrity and ethical values
         Standards of Conduct, whom do you go to?




                                                       44
                                                                                                    Attachment 1.3
SECTION V
Questions about the goals
and risks of procurement activities
                                                        The purpose of these questions is to obtain information about the control
                                                        element of Risk Assessment.




         Interview Questions                                            GAO Standard
    1.   When was the last time you had a                       Risk Assessment – Risk
         discussion about any possible vulnerability
         associated with the procurement of goods
         and services with the purchase card in your
         principal office?

         Follow-up: Tell me about the discussion.

         Is there a formal risk assessment process in
         your POC?

    2. What has been done to limit these                        Risk Assessment - Risk
       procurement risks?




                                                        45
                                                                                                     Attachment 1.3
SECTION VI
Questions about how a non-compliance
or ethical situation is handled
                                                            The purpose of these questions is to (1) allow the interviewee an
                                                            opportunity to identify any situation that has occurred where the
                                                            interviewee believed there may have been an ethical or compliance
                                                            issue and (2) to obtain information on whether the administrative/
                                                            executive official understands how to handle a situation where there
                                                            is an ethical or compliance issue.




         Interview Questions                                               GAO Standard
                                                                     Control Environment – Follow-up
   1.   As an administrative/executive officer, have                 Communication and Information
        you ever encountered a situation where you                   Monitoring
        believed that the vendor of purchase card
        goods or services was deficient (i.e., not
        meeting your expectations) or that the
        agency was not receiving its money’s
        worth? Has management established lines
        of reporting?

        IF YES, what did you do about it?
        Potential follow-up questions (ask as
        necessary)
            ü Did you document it in your files?
            ü Whom did you report the matter to?
            ü How did the person you reported it
                 to deal with the matter?
            ü How was it resolved?

        IF NO, what would you do if you
        encountered such a situation?
        Potential follow-up questions (ask as
        necessary)
            ü Would you feel comfortable telling
                 management (supervisor,
                 supervisor’s superior, and
                 contracting officer)?
             ü Whom would you report the matter
                 to?
             ü How would you expect them to
                 deal with the matter?




                                                       46
                                                                                         Attachment 1.3
SECTION VI Continued
Questions about how a non-compliance
or ethical situation is handled




         Interview Questions                                         GAO Standard
   2.   As an administrative/executive officer, have         Control Environment – Follow-up
        you ever encountered a situation where you           Communication and Information
        had misgivings (i.e., ethical concerns) about        Monitoring
        what you were asked to do?

        IF YES, what did you do about it?
            Potential follow-up questions (ask as
            necessary)
            ü Did you document it in your files?
            ü Whom did you report the matter to?
            ü How did the person you reported it
                to deal with the matter?
            ü How was it resolved?

        IF NO, what would you do if you
            encountered such a situation?
            Potential follow-up questions (ask as
            necessary)
            ü Would you feel comfortable telling
                 management?
            ü Whom would you report the matter
                to?
            ü How would you expect them to
                deal with the matter?


   3. As an administrative/executive officer, have           Control Environment – Follow-up
      you ever encountered a situation where a               Communication and Information
      vendor was in non-compliance (violation)               Monitoring
      with the terms of the contract, or related rule
      or regulation? Has management established
      lines of reporting?

        IF YES, what did you do about it?
            Potential follow-up questions (ask as
            necessary)
            ü Did you document it in your files?
            ü Whom did you report the matter to?
            ü How did the person you reported it
                to deal with the matter?



                                                        47
                                                                                        Attachment 1.3
SECTION VI Continued
Questions about how a non-compliance
or ethical situation is handled



        Interview Questions                                         GAO Standard
           ü   How was it resolved?                         Control Environment – Follow-up
                                                            Communication and Information
   IF NO, what would you do if you encountered              Monitoring
   such a situation?
            Potential follow-up questions (ask as
            necessary)
            ü Would you feel comfortable telling
                 management (supervisor,
                  supervisor’s superior)?
            ü Whom would you report the matter
                 to?
            ü How would you expect them to deal
                 with the matter?

  4. As administrative/executive officer, have you          Control Environment – Follow-up
      ever encountered a situation where you                Communication and Information
      suspected that the contractor, or someone else        Monitoring
      having an interest in the procurement process,
      may have violated the law or possibly
     committed a crime? Has management
      established lines of reporting?

   IF YES, what did you do about it? Potential
   follow-up questions (ask as necessary)
           ü Did you document it in your files?
           ü Whom did you report the matter to?
           ü How did the person you reported it
               to deal with the matter?
           ü How was it resolved?

   IF NO, what would you do if you encountered
    such a situation?
       Potential follow-up questions (ask as
       necessary)
            ü Would you feel comfortable telling
                  management (supervisor,
                  supervisor’s superior)?
             ü Whom would you report the matter
                   to?
             ü How would you expect them to deal
                  with the matter?

                                                       48
                                                                             Attachment 1.3
SECTION VI Continued
Questions about how a non-compliance
or ethical situation is handled




        Interview Questions                                        GAO Standard

   5. Are you aware of the requirement to report             Communication
      all indications of fraud or criminal activities
       to the OIG, including using the hotline. If           Communication
       so, have you ever needed to report a
       purchase card or procurement-related
       condition?


    6. Have you ever used the OIG hotline to
        report a condition related to purchase
       card use or procurement?




                                                        49
                                                                                                   Attachment 1.3
SECTION VII
Questions about the administrative/executive officer’s
evaluation of the system
                                                             The purpose of these questions is to obtain the administrative/
                                                             executive officer’s evaluation of the procurement process.




           Interview Questions                                          GAO Standard
     1.   How do you rate the communication                       Communication
          between the staff involved in the purchase
          card process?

     2.   Are you aware of any best practices related
          to the purchase card program?




Final question:

Are there any other areas we did not cover that you want to share with us?




                                                        50
                                                                                       Attachment 1.4

GUIDE FOR INTERVIEWS
OF SENIOR OFFICIALS

Purpose of the interview – To obtain
information on the processes used by agency
and the principal office components (POC) to
ensure compliance with laws and regulations
during the procurement of goods and services
using the government purchase card.

Background – The appropriate senior official
(assistant secretary or the deputy assistant
secretary or the equivalent) has the ultimate
responsibility for the proper operation of the
POC, including the POC’s purchase card
procurement practices.

Preparation for the interview – All other principal office (PO) interviews should be completed so the
interview with the senior official is used not only to solicit additional information but also to provide
that senor official with a summary of our preliminary findings.

Interview – Interview steps should include (1) providing the senior offical with a summary of the
evaluation criteria used in our review; (2) completing all necessary interview questions; and (3) providing
a summary of our preliminary findings.

•   Criteria – We are performing an assessment of the internal controls used by each principal office
    in the procurement of goods and services. Our evaluation uses the internal control standards
    established by GAO. The five standards are:
               – Control Environment
               – Risk Assessment
               – Control Activities
               – Information and Communications
               – Monitoring

           We have developed a series of questions based on these standards to use in our interviews
           with staff and in our overall evaluation of each PO and the Department.

•   Preliminary Findings for the principal office.




                                                        51
                                                                                                       Attachment 1.4


SECTION I
Questions about the Senior Official’s experience
                                                                First, verify the interviewee’s name and his/her supervisor.




            Interview Questions                                               GAO Standard

  1.    How long have you been a senior offical for your        Control Environment – Management Philosophy and
        office?                                                 Operating Style

   2.   What is your experience with the                        Control Environment – Assignment of Authority and
        procurement processes of the Department?                Responsibility


   3.   Are you evaluated on the procurement
        processes of your office? By whom?

   4. Who do you consider to be part of your pro                Control Environment – Organizational
      curement staff?


   5.   How did you select your procurement staff?              Control Environment – Commitment to Competence

  6.    How often do you meet with your                         Control Environment – Organizational Structure
        procurement staff?




                                                           52
                                                                                  Attachment 1.4
SECTION II
Questions about how the senior official performs his/her duties




           Interview Questions                                  GAO Standard
   1. Do you review any documents related to the           Understanding the Process
      procurement process?
   2. How do you monitor the procurement                   Understanding the Process
      activities in your office and the performance        Control Activities
      of your procurement staff?                           Monitoring – Ongoing

   3.   Have you ever been advised of any
        problem with the procurement processes
        in your office?
   4.   How would you respond to
        procurement performance
        problems?
   5.   Do you have sufficient time to
        adequately perform your
        procurement responsibilities?
   6.   Does your procurement staff have
        sufficient time to adequately
        perform their procurement
        responsibilities?


   7.   What guidance (office, agency, and                 Information
        government-wide) do you use to
        fulfill your procurement
        responsibilities?


   8.   Do you have an inventory of                        Monitoring – Ongoing
        assets procured by your office?




                                                      53
                                                                                                Attachment 1.4
SECTION III
Questions about the senior official’s work
in relation to the office

                                                          The purpose of these questions is to obtain information about the
                                                          Control Environment, Information and Communication and
                                                          Monitoring.




           Interview Questions                                         GAO Standard
   1.   How do you convey your expectations in the             Control Environment – Management
        purchase card procurement area?                        Philosophy

   2.   Who provides you information on                        Information
        procurement requirements?

   3.   What are the consequences of noncompliance
        by your procurement staff?




                                                     54
                                                                                         Attachment 1.4
SECTION IV
Questions about ethics and ethics training



         Interview Questions                                         GAO Standard
    1.   How does the Department provide
         information to you on the Standards of              Control Environment – Integrity and ethical values
         Conduct?

    2.   How does the Department provide                     Control Environment – Integrity and ethical values
         information to your procurement staff
         on the Standards of Conduct?
    3.   Does the Department’s ethics training               Control Environment – Integrity and ethical values
         provide adequate ethics information to
         you? Why/Why not?

    4.   Does the Department’s required ethics
                                                             Control Environment – Integrity and ethical values
         training provide adequate ethics
         information to your procurement staff?
         Why/Why not?

    5.   Should there be specific ethics training for        Control Environment – Integrity and ethical values
         procurement staff? Why/Why not?

    6.   How do you convey a commitment to                   Control Environment – Integrity and ethical values
         integrity and ethical values?

    7.   When you have a question about                      Control Environment – Integrity and ethical values
         ethics or the Standards of Conduct,
         whom do you go to?




                                                        55
                                                                           Attachment 1.4
SECTION V
Questions about the goals
and risks of procurement activities


         Interview Questions                           GAO Standard
    1.   Do you have discussions within           Risk Assessment – Risk
         your office regarding the risks
         associated with the purchase card
         procurement process?

         Follow-up: Tell me about the
         discussion(s).

                                                  Risk Assessment - Risk
    2. What has been done to limit these
       risks?




                                             56
                                                                                                Attachment 1.4
SECTION VI
Questions about how a non-compliance
or ethical situation is handled The purpose of these questions is to (1) allow the interviewee an
                                                         opportunity to identify any situation that has occurred where the
                                                         interviewee believed there may have been an ethical or compliance
                                                         issue and (2) to obtain information on whether the senior official
                                                         understands how to handle a situation where there is an ethical or
                                                         compliance issue.


             Interview Questions                                       GAO Standard
                                                                  Control Environment – Follow-up
        1.    Series of situational questions:
                                                                  Communication and Information
                                                                  Monitoring
              Have you ever encountered a
              situation where you believed that a
              vendor was deficient (i.e., not meeting
              your expectations) or that the agency
              was not receiving its money’s worth?

              Have you ever encountered a situation
              where you had misgivings (i.e., ethical
              concerns) about actions that occurred or
              were proposed in the procurement
              process?

              Have you ever encountered a situation
              where you suspected that the vendor, or
              someone else having an interest in the
              procurement process, may have violated
              the law or possibly committed a crime?

              For all three:

              IF YES, what did you do about it?
              Potential follow-up questions (ask as
              necessary)

              ü Did you document it in your files?
              ü Whom did you report the matter
                to?
              ü How did the person you reported it
                to deal with the matter?
              ü How was it resolved?

              IF NO, what would you do if you
              encountered such a situation?

              Potential follow-up questions (ask as
              necessary)
              ü Whom would you report the matter
                   to?
              ü How would you expect them to
                  deal with the matter?


                                                         57
                                                                    Attachment 1.4
SECTION VI Continued
Questions about how a non-compliance
or ethical situation is handled




        Interview Questions                          GAO Standard
  2. As a senior official, have you ever            Communication
     encountered a situation where you
     suspected that someone having an
     interest in the procurement process may
     have violated the law or possibly
     committed a crime?

       If yes, what did you do about it?


   3. Have you ever used the OIG hotline to         Communication
      report a condition related to purchase
      card use or procurement?
   4. Is your procurement staff aware of the        Communication
      OIG hotline?




                                               58
                                                                             Attachment 1.4
SECTION VII
Questions about the senior official’s evaluation of the system



           Interview Questions                                  GAO Standard
     1.   How do you communicate issues related to          Communication
          procurement with the individuals above and
          below you?

     2.   How do you rate the communication between         Communication
          the staff involved in the procurement
          process?




Final question:

Are there any other areas we did not cover that you want to share with us?




                                                       59
ATTACHMENT 2   RECORD OF INTERVIEW




                60
                                                                                             Attachment 2

RECORD OF INTERVIEW
Purpose:         To obtain information on the process
                 used by (Agency), a Purchase Card
                 Approving Official, and Purchase
                 Cardholder to ensure compliance
                 with laws and regulations during the
                 procurement of goods and services.

Date and Time:

Location:

Participants:

At the outset of the interview (name) was advised of
the purpose of the interview. The interview began at
about (time) and concluded at approximately (time).
(name) provided the following information, in substance:

Discussion:

Experience & Training (Control Environment):

Performance of Duties (Control Activities):

Work in relation to POC (Control Environment, Information and Communication and Monitoring):

Ethics and Ethics Training (Control Environment):

Goals and Risks of Procurement Activities (Risk Assessment):

Non-compliance or ethical situations (Control Environment, Communication & Information and Monitoring):

Evaluation of procurement process (Communication and Control Environment):

Documents Promised:

Issues for follow up:

For the following attachments go to the Department of Education, Office of Inspector General
web site www.ED.gov/offices/OIG/. Click on Analysis and Inspection Reports in the left-hand column.




                                                           61
                                  Attachment 3




ATTACHMENT 3   INDIVIDUAL REPORT - SAMPLE




                    62
                                  Attachment 4




ATTACHMENT 4   CAPPING REPORT - SAMPLE




                   72
                                 Attachment 5




ATTACHMENT 5   FOLLOW UP REPORTS - SAMPLE




                  84
